No.

IN THE SUPREME COURT
OF THE UNITED STATES

FRANCISCO ALMANZA-GARCIA,
Petitioner

v
RICK COURSEY,
Superintendent,

Respondent.

On Petition For Writ Of Certiorari To
The United States Court OfAppeals
For The Ninth Circuit

PETITION FOR WRIT OF CERTIORARI

Stephen R. Sady
Chief Deputy Federal Public Defender
Counsel of Record

Nell Brown

Assistant Federal Public Defender
101 SW Main Street, Suite 1700
Portland, Oregon 97204
(503) 326-2123

Attorneys for Petitioner

QUESTION PRESENTEI)
This case involves important and recurring access to justice issues in the context

of

habeas corpus rights under the Antiterrorism and Effective Death Penalty Act. Under the

AEDPA, a state prisoner must file for federal habeas co{pus relief within one year of state
proceedings becoming final, excluding "[t]he time during which

a properly filed

application for State post-conviction or other collateral review" is pending. In the present
case, after his unsuccessful state post-conviction proceeding at the

trial court level, which

would ordinarily not be appealable under state law, the petitioner moved in the Oregon
Court of Appeals for a determination of whether the appellate court had jurisdiction. The
state appellate court granted the petitioner's motion to determine jurisdiction, describing

the lower court's ruling as

ooa

hodgepodge of legal mumbo jumbo." The appellate court

then denied jurisdiction based on arguments made in opposition to the petitioner's motion.

The federal district court dismissed his subsequent habeas co{pus petition as untimely,
concluding that the state appellate court's determination regarding jurisdiction had
consumed the one-year federal statute of limitations. The question presented is:

filed" in28 U.S.C. S 2244(d) include a
timely filed motion for the determination of the state appellate court's
Does the plain meaning of "properly

jurisdiction to review the lower court's post-conviction denial?

PARTIES TO THE PROCEEDINGS
The petitioner, Francisco Almanza-Garcia, is a state prisoner in the custody of the
Oregon Department of Corrections. The respondent, Rick Coursey, the Superintendent

of

the Eastern Oregon Correctional Institutiono is named as the petitioner's custodian in his

official capaclty, substituting for the formerly named respondent pursuant to Rule 25(d)(1)
ofthe Federal Rules of Civil Procedure and Rule 2(a) ofthe Rules Governing Section 2254
Cases in the United States District Courts.

RELATED PROCEEDINGS
There are no proceedings that should be deemed related.

TABLE OF'CONTENTS
Page

Table of Authorities

2.

Jurisdictional Statement

2

3

Constitutional and Statutory Provisions

2

4

Summary of Reasons for Granting the Writ of

Certiorari

.......................4

Appeal.....

........6

5

Initial Criminal Proceedings Through Direct

State Post-Conviction Proceedings and Appeal.

..6

Federal Habeas Corpus Proceedings and Decisions Below

6.

Reasons for Granting the

A.
B

C

Writ........

.....12

The Lower Courts Deviated From Statutory Text In Failing To Follow
Court Always Has
This Court's Precedent Holding That
Jurisdiction To Determine Its Own Jurisdiction.............. ...........12

A

Application Of The AEDPA Statute Of Limitations To Jurisdictional
Litigation Violated The Plain Meaning And Purpose Of The Tolling
Provision For'oProperly Filed" State Proceedings.

t6

The Decision Of The District Court And The Ninth Circuit

Irrationally Blocks Diligent Petitioners From Receiving The Federal
Review Guaranteed By The Statutory And Constitutional Writ Of

Habeas Corpus.

18

INDEX TO APPENDIX
Ninth Circuit Memorandum Opinion

1

District Court Opinion and Order

......................5

Ninth Circuit Denial of Petition for Rehearing And Rehearing En Banc.

15

State Court Order Regarding Sufficiency Notice and Motion to Dismiss

t6

State Court Order Dismissing

Appeal..

...........28

Additional State Opinions On A Court's Ability To Determine Its Own Jurisdiction......29
28 U.S.C.

2244

.31

28 U.S.C. 5 22s4

.33

S

11

TABLE OF AUTHORITIES
Page

SUPREME COURT OPINIONS
Artuz v. Bennett,
s31u.s.4 (2000)

14,15,16,

17

Bostockv. Clayton CnA., Georgia,
140 s. ct. r73r (2020)

t6

Brownbackv. King,
141 S. Ct.740 (2021)

13

Dretke v. Haley,

541 u.S. 386 (2004)

19

,

Hollandv. Florida,
s60

t9

u.s. 631 (2010)

Nkenv. Holder,

556 U.S. 418 (2009)

t7

Pace v. DiGuglielmo,
s44 U.S. 408 (200s)

14, 16

Robinsonv. Shell Oil Co.,
519 U.S. 337 (1997)

l7

Steel Co. v. Citizens for a Better Env't,
s23 U.S. 83 (ree8)

1l

United States v. Mine Workers,
330 u.s. 2s8 (te47)

11,13

United States v. Ruiz,
s36 u.s. 622 (2002)

ll,12-13

Wilson v. Sellers,
138 S. Ct. 1188 (2018)

t7
U.S. CONSTITUTION

3,19

U.S. Const. art.I, $ 9, cl. 2

lll

F'EDERAL COURT OPINIONS
Ramirez v. Yates,
571 F.3d 993 (9th Cir.2009)

10, l1

Rice v. Bowen,
264F.3d 698 (7th Cir. 2001)

t7

UNITED STATES CODE
28 U.S.C. $

l2s4(l)

2

3,4,

28 U.S.C. S 2244
28 U.S.C. S 22s4

ll
2

STATE CASES
Barry v. State Bar of Califurnia,
2 CaL5th 318, 386 P.3d 788 (2017)

l3

In re Marriage of Flores & Martinez,
231 Ariz. 18,289 P3d 946 (Ct. App. 2012)

l3

Rutter v. Oala,vood Living Centers of Virginia, Inc.,
282Ya.4,710 S.E. 2d 460 (2011)

l3

STATE STATUTES AND RULES

3,8,9,12

Or. Rev. Stat. $ 138.525

3, l5

or. R. App.P. 7.0s(1Xc)

iv

No.

IN THE SUPREME COURT
OF THE LTNITED STATES

FRANCI SCO ALMANZA.GARCIA,
Petitioner,

v
RICK COURSEY,
Superintendent,

Respondent.

On Petition For Writ Of Certiorari To
The United States Court Of Appeals
For The Ninth Circuit

The petitioner, Francisco Almanza-Garcia, respectfully requests that a writ of
certiorari issue to review the judgment of the United States Court of Appeals for the Ninth

Circuit entered on March 3, 2021, affirming the dismissal of his federal habeas corpus
petition as untimely filed.

1.

Opinions Below
The federal district court denied habeas corpus relief in an opinion dismissing the

petition

as

untimely filed on March 12,2020 (Appendix 5). The Ninth Circuit affirmed the

dismissal of the federal habeas corpus petition in
1

a

memorandum opinion on March 3,2021

(Appendix 1). The Ninth Circuit denied panel and en banc rehearing on April 1'2,2021
(Appendix l5).

,

Jurisdictional Statement
This Court's jurisdiction is invoked under 28 U.S.C. $ 1254(1).

3.

Constitutional and Statutory Provisions
The federal habeas corpus statute provides for relief from state convictions for

violation of federal constitutional rights after exhaustion of state remedies:

(a) The Supreme Court, a Justice thereof, a circuit judge, or a district court

shall entertain an application for a writ of habeas corpus in behalf of aperson
in custody pursuant to the judgment of a State court only on the ground that
he is in custody in violation of the Constitution or laws or treaties of the
United States.

(b) (l) An application for a writ of habeas corpus on behalf of a person in
custody pursuant to the judgment of a State court shall not be granted unless

it appears that-

(A)

the applicant has exhausted the remedies available in the courts of the
State; or

(BXi) there is an absence of available

State corrective process; or

(ii)

circumstances exist that render such process ineffective to protect the
rights of the applicant.
28 U.S.C. S 2254. The

full statute is set out in the Appendix at 33.

The statute of limitations in the Antiterrorist and Effective Death Penalty Act states

(l) A l-year period of limitation shall apply to an application for a writ of

habeas corpus by a person in custody pursuant to the judgment
court. The limitation period shall run from the latest

of-

(A)

of a State

the date on which the judgment became final by the conclusion of direct
review or the expiration of the time for seeking such review;
2

***4.

(2) The time during which a properly filed application for State post-

conviction or other collateral review with respect to the pertinent judgment
or claim is pending shall not be counted toward any period of limitation under
this subsection.
28 U.S.C. S 2244(d). The statute in tulI is set out in the Appendix at

3 1.

The Constitution guarantees the writ of habeas corpus in the Suspension Clause,

which states: "The Privilege of the Writ of Habeas Corpus shall not be suspended, unless
when in Cases of Rebellion or Invasion the public Safety may require it." U.S. Const. art.

I,$9,cI.2
The state court statute regarding jurisdiction to review post-conviction judgments
states:

(1) The court may, on its own motion or on the motion ofthe defendant, enter
a judgment denying a meritless petition brought under ORS 138.510 to
138.680.

(2) As used in this section, "meritless petition" means one that, when

liberally construed, fails to state a claim upon which post-conviction relief

may be granted.

(3) Notwithstanding ORS 138.650, a judgment dismissing a

petition is not appealable.

(4)

meritless

A dismissal is without prejudice if a meritless petition is dismissed

without a hearing and the petitioner was not represented by counsel.

Or. Rev. Stat. $ 138.525. Under the Oregon appellate ruleso "Aparty may raise an issue

of

the jurisdiction of the appellate court by motion at any time during the appellate process."

or. R. App. P. 7.0s(l)(c).

3

4.

Summary of Reasons for Granting the Writ of Certiorari

This Court should grant the writ of certiorari to hold that the plain meaning of
"properly filed" in 28 U.S.C.

S

2244(d) includes timely filed motions for the determination

of the appellate court's jurisdiction. The issue is a recurring one in Oregon and other
jurisdictions with similar post-conviction statutes and, for petitioners like Mr. AlmanzaGarcia, implicates the severe consequence of foreclosing all federal review of federal
constitutional claims. Because he sought a timely determination of the appellate court's

jurisdiction, and the appellate court granted his motion to determine jurisdiction,
Mr. Almanza-Garcia should have obtained federal review under the AEDPA of his claims
that his state court convictions resulted from violation of his federal constitutional rights.
There are three fundamental reason for the Court to clariff this area of law. First,

the lower court rulings ignored this Court's repeated injunction that jurisdiction always
exists to determine whether a court has jurisdiction. Although the Court articulated the

jurisdictional principle in the context of federal courts, the question whether state litigation
was "properly filed" is solely a question of federal law. Thus, a timely filed motion to
state court of appeals to determinejurisdiction is "properly

a

filed" forpurposes ofthe statute

of limitations applicable to federal habeas corpus petitions.
Second, the plain meaning and purpose of the statute are well served by construing

"properly filed" to include a petitioner's efforts to establish appellate jurisdiction over

a

denial of relief by the state post-conviction court. The state court of appeals granted the
motion, dismissing the lower court's ruling as "legal mumbo jumbo with citations to cases
4

and legal principles that have nothing to do with the present case." Although ultimately

ruling against the petitioner on the jurisdictional merits, the court of appeals provided the
ruling that the federal courts would have considered if they had reached the merits because

it was the state court's last statement on the issues. Under the logic of the Ninth Circuit's
ruling, though, the federal court would have only considered the "legal mumbo jumbo"

of

the lower court's ruling. This Court should hold that the timely state court litigation was

"properly filed" as within the plain meaning of the statute and as consistent with the
purpose and design of the AEDPA.

Third, the Court should not tolerate the Ninth Circuit's denial of access to the federal

writ of

habeas corpus under the circumstances of this case. The Oregon courts provided

appointed counsel for the petitioner

to litigate his claim that appellate review

was

appropriate. The Oregon appellate court granted the petitioner's motion and rendered a
reasoned decision that recognized merit in the petitioner's claim regarding defects in the

proceeding below. Any reasonable prisoner would have confidence that he or she had
"properly filed" the correct motion to obtain review of the lower court's defective decision.

By deeming the state appellate litigation not to be "properly filed," the Ninth Circuit
unfairly barred the diligent petitioner from access to the federal courts for the purposes of
obtaining the habeas corpus review guaranteed by statutory and constitutional law.

5

5.

Statement of the Case

Initial Criminal Proceedings Through Direct Appeal
In August 2007, Mr. Almanza-Garcia was charged with sexual offenses against

a

minor relative. He was initially convicted at a September 2008 bench trial, but the Oregon
Court of Appeals reversed his conviction, ordering

a

new trial based on

a

plain evidentiary

error. Statev.Almanza-Garcia,242Or.App.350,255P.3d613(2011).Thecasethenwas
tried to ajury. Mr. Almanzawas convicted unanimously and sentenced to three consecutive
prison terms of 300 months. Appellant's Excerpts of Record, Almanza-Garcia v. Hendrix,

No.20-35260 (gthCir. filed July 17,2020) (DocketNo. 10 at19) (hereafterER).
Mr. Almanza-Garcia again appealed, claiming that the trial court erred in excluding
evidence, that his sentence violated the Eighth Amendment, and that the trial court erred

in instructing the jury that its verdict did not need to be unanimous. The Oregon Court of
Appeals affirmed without opinion. State v. Almanza-Garcia, 271 Or. App. 377,353 P.3d
61 8

(2015).

Mr. Almanza-Garcia petitioned for Oregon

Supreme Court review, but review

was denied. State v. Almanza-Garcia,358 Or. 248,364 P.3d 1001 (2015). The appellate

judgment for the direct appeal was effective on December 15,2015.ER 38.
State Post-Conviction Proceedings and Appeal
On

April 14,20l6,less

than four months later, Mr. Almanza-Garcia, representing

himself, sought post-conviction relief, challenging his conviction and sentence on several
grounds, including that trial counsel provided ineffective assistance when he failed to
investigate and raise appropriate objections. ER 39. Although the state court appointed
6

counsel, Mr. Almanza-Garcia's counsel filed an affidavit asserting that the petition could

not be amended to state a ground for relief. ER 46. However, contradicting that assertion,
counsel stated in the affidavit that three of the petitioner's pro se claims "appear to have

merit sufficient to warrant an examination." ER 47. The appointed counsel's affidavit then
argued against those claims, professing to have reviewed the record and concluding that

the claims lacked substantive merit. ER 50-56. Counsel did not present the claims in an
amended petition, investigate them beyond the record, nor

file a supporting brief and

evidence for a decision by the post-conviction court. The State moved to dismiss Mr.
Almanza-Garcia's pro se petition for failure to state a claim, citing counsel's declaration.

ER 52-56.
On February 2,2017,the post-conviction trial court issued a lengthy and dense form

order largely untethered to

Mr.

Almanza-Garcia's case, granting the State's motion. ER

58-69 (Appendix l6). On February 28,2017,the post-conviction court entered its judgment
dismissing the post-conviction petition:

This matter came before the Honorable Judge Daniel J. Hill on petitioner's
postconviction relief attorney's filing under ORS 138.590(5) and defendant's
oral Motion to Dismiss.
The Court having previously granted defendantos oral Motion and dismissed
the Petition for Post-Conviction Relief by an Order entered separately in this
case,

NOW, THEREFORE, IT IS ADJUDGED that the Petition for PostConviction Relief is dismissed with prejudice and judgment is entered in
favor ofdefendant.

7

ER 70. Under Oregon law, meritless post-conviction actions are not appealable. Or. Rev.
Stat. $ 138.525.
On February

27,20I8,Mr. Almanza-Garcia filed a motion to determine jurisdiction

along with his appeal, arguing that the post-conviction court's opinion was ambiguous and

"a hodgepodge of legal mumbo jumbo." ER 71. The State filed a responsive brief arguing
that the denial of the post-conviction petition as meritless was correct, negating appellate

court jurisdiction. ER 107. On March 28,2018, the Appellate Commissioner issued an

order stating, "The motion for determination of appealability is granted." ER

ll2

(Appendix 28). At the outset of the short opinion, the Appellate Commissioner explained
the procedure leading to the decision to grant the motion to determine appealability:

Petitioner appeals the trial court's judgment dismissing his petition for postconviction reliel and moves for a determination of whether the judgment is
not appealable under ORS 138.525(3) because dismissal was based on the
trial court's determination that petitioner's petition failed to state a claim on
which post-conviction relief may be granted. The motion for determination
of appealability is granted.

Id. The Appellate Commissioner then agreed with the petitioner that ruling by the postconviction court made no sense:
Petitioner characterizes the trial court's order as "a hodgepodge of legal
mumbo jumbo with citations to cases and legal principles that have nothing
to do with the present case." The court concurs with that characterization.
The order appears to be a form order that the trial court has employed in other
post-conviction relief cases, including but not limited to Breece v. Amsberry,
27 9 Or App 648, 650-5 1, 3 8 I P3 d I 086 (2016), Corona v. Amsberry, 284 Ot
App 414, 4t7,393 P3d 248 (2017), Knight v. Myrick, Court of Appeals No.
A162804, and Etheridge v. Popoff, Court of Appeals No. A164345.

8

Id. (emphasis added). The Appellate Commissioner then determined that, under its review

of the record, the order was not appealable because the lower court had

correctly

determined the petition failed to state a claim for post-conviction relief:
Nevertheless, as respondent asserts, the trial court's judgment ultimately is
based on the trial court's determination that the petition did not allege a claim
for post-conviction reliel as reflected in the trial court's order granting
respondent's motion to dismiss, which, in turn, was based on a failure to
allege a claim for post-conviction relief.

The court concludes that the judgment is not appealable under

ORS

138.525(3) and, on that ground, dismisses the appeal.

Id.InApril2018, Mr. Almanza-Garciamoved for reconsideration,

and, on May

1I,20I8,

the appellate court denied reconsideration. ER 153-54.

After filing the federal petition, Mr. Almanza-Garcia continued to pursue his state
post-conviction appeal. Through appointed counsel, he petitioned the Oregon Supreme
Court for review in July 2018. ER 155. hat court denied review on August 30, 2018. ER at

77. The appellate judgment concluding the post'conviction appeal became effective on
October 10, 2018. ER at 179.
Federal Habeas Corpus Proceedings and Decisions Below

Well before the issuance ofthe state-court appellate judgment, Mr. Almanza-Garcia
had signed, and by virtue of the mailbox rule, filed, his pro se federal habeas corpus
petition, which was filed on September 25,201 8. ER I 80 (signed June 25,2018). Pursuant

to an order of the district court, Mr. Alman za-Garica,through appointed counsel, filed an
amended petition, which the State eventually answered, claiming the federal petition was

9

untimely. The district court explained the State's argument that the entire time for the state

post-conviction appellate ruling counted against and exceeded the federal statute of
limitations:

fT]hat although Petitioner properly filed his initial-level [post-conviction
reliefl action, the AEDPA's statute of limitations began to run when the
[post-conviction relief] court issued its non-appealable judgment on
February 21, 2017. As a result, the one-year statute of limitations ran
unabated for 469 days until Petitioner signed his original, pro se Petition for
Writ of Habeas Corpus on June 5, 2018.
ER 8 (Appendix 10). The district court also spelled out the petitioner's assertion that his
effort to determine the state appellate court's jurisdiction was "properly filed":
Petitioner counters that his motion to determine jurisdiction was properly
filed in the Oregon Court of Appeals, that it was entirely proper for him to
seek appellate review of the [post-conviction] court's dismissal of his case,
and that his case is timely because statutory tolling necessarily continued
until October 10, 2018 when his fpost-conviction reliefl Appellate Judgment
became effective after the Oregon Supreme Court denied review.
rd.

The district court concluded that no time lapsed between Mr. Almanza-Garcia's
direct appeal and the initiation of his post-conviction-relief action.
also held that

Mr.

Id.

The district court

Almanza-Garcia's state post-conviction trial court proceeding was

"properly filed" and tolled the limitations period until that court's final judgment was
issued on February 2,2017 . However, relying on Ramirez v. Yates,57l F.3d 993 (9th Cir.

200g),the district court concluded that

Mr. Almanza-Garcia's

appeal from the adverse

post-conviction decision was not "properly filed" because the lower court's ruling was

ultimately deemed to be not appealable: "[J]ust as in Ramirez, the lower court's decision
10

was not appealable under state law." Appendix 11. With regard to equitable tolling, the

district court held that the petitioner could not demonstrate he had diligently pursued his
federal remedy:

While the procedural posture Petitioner faces is unfortunate, he cannot

demonstrate that he diligently pursued his federal habeas aorpus remedy and
was only unable to timely file this action due to extraordinary circumstances.
Equitable tolling is therefore not appropriate.

Appendix 13. The district court concluded Mr. Almanza-Garcia had not demonstrated
actual innocence and also denied an evidentiary hearing. Appendix 13-14.

On appeal, Mr. Almanza-Garcia argued that his habeas coqpus petition was timely
because he "properly filed" the state court appeal under the plain meaning

citing to this Court's authority establishing that

a

of $ 2244(d),

court always has jurisdiction to determine

its ownjurisdiction. Appellant's OpeningBrief, Almanza-Garciav. Hendrix,No.20-35260

(9th Cir. filed July 17,2020) (Docket No. 9 at 19-20 ) (citing United Stotes v. Ruiz, 536
IJ.S. 622, 626-28 (2002), Steel Co. v. Citizens
and United States v.

for

a Better Env't, 523 U.S. 83, 89 (1998),

Mine Workers,33O U.S. 258,291 (1947)). Based on an earlier Ninth

Circuit case involving an untimely appeal, the Ninth Circuit denied relief, stating: "[A]
petitioner is not entitled to tolling during the pendency of an appeal from
order because such an appeal is not a 'properly

a non-appealable

filed' application for post-conviction

o'Here,
relief." Id. atDocket No. 37 at2 (Appendix 2) (citing Ramirez,57l F.3d at999).

the order Almanzaattempted to appeal was non-appealable because under Oregon

law,'a

judgment dismissing a meritless petition is not appealable,' and a meritless petition is

1l

defined as one that 'fails to state a claim upon which post-conviction relief may be
granted."'Appendix 2-3 (citingOr. Rev. Stat. $ 138.525(2) and (3)).

Mr. Almanza-Garcia petitioned for rehearing and rehearing en banc. The Ninth
Circuit denied rehearing and rehearing en banc on April 12,2021. Appendix

6.

Reasons for Granting the

15.

Writ

This case implicates core reasons for the grant of the writ of certiorari. The lower
court decision runs counter to this Court's authority that a court always has jurisdiction to
determine its jurisdiction. The plain meaning of "properly filed" as well as the purposes

of

the AEDPA's requirements are undermined by the failure to recognize that a motion to
determine jurisdiction that was grantedinthe state court appropriately provided the federal

court with the last reasoned judgment upon which the federal courts should have based
review on the merits. The lower courts' interpretation of "properly filed" to exclude normal
state court review processes operated as an irrational trap for the unwary that foreclosed

consideration of the federal habeas co{pus petition. Such an irrational procedural obstacle
undermines the purposes and procedures for determining federal constitutional rights under
the statutory and constitutional writ of habeas corpus.

A.

The Lower Courts Deviated From Statutory Text In Failing To Follow
This Court's Precedent Holding That A Court Always Has Jurisdiction
To Determine Its Own Jurisdiction.

Mr. Almanza-Garciaos state appeal constituted a "properly filed" effort to have the
state court determine its jurisdiction.

"[I]t is familiar

law that a federal court always has

jurisdiction to determine its own jurisdiction." United States v. Ruiz,536 U.S. 622, 628

t2

(2002) (citing United States v. Mine Workers, 330 U.S. 258, 291 09a7D:" accord
Brownback v. King,141 S. Ct.740,750 (2021). State courts also routinely recognize the

logical necessity of a party being able to challenge an adverse jurisdictional ruling.
e.g.,

See,

In re Marriage of Flores & Martinez, 231 Ariz. 18, 20-21, 289 P .3d 946, 948-49 (Ct.

App.2012) ("[A] court always has jurisdiction to determine its own jurisdiction . . . And

an appellate proceeding, including one in which an appeal is dismissed for lack of
jurisdiction, does not terminate until the appellate court's mandate issues."); Barry v. State
Bar of California,2 Cal.5th 3 18, 326,386 P.3d 788, 793 (2017) ("[A] court has jurisdiction
to determine its own jurisdiction, for a basic issue in any case before a tribunal is its power

to act, and it must have authority to decide that question in the first instance."); Rutter
Oah,vood Living Centers of Virginia,

v.

Inc.,282Ya. 4,710 S.E. 2d 460,464 (2011) ("[A]

court always has jurisdiction to determine its jurisdiction, even when determining
jurisdiction first requires analysis of the merits of an issue.").r A motion to determine the
appellate courtos jurisdiction constitutes a "properly

filed" state post-conviction review

proceeding because the petitioner followed available procedures to seek appellate court

review. The relevant decisions of this Court, and the consensus among state courts,
establish the principle that a court always has jurisdiction to determine its jurisdiction.

The district court and Ninth Circuit decisions here, which held that Mr. Almanza'
Garcia's effort to obtain appellate review of the jurisdictional ruling was not "properly

I Other examples of state courts recognizing the authority for a court to determine
its own jurisdiction are listed in the Appendix at29.
13

filed," warrant this Court's review because they "decided an important federal question in
away that conflicts with relevant decisions of this Court." Sup. Ct. R. 10(c). The question
whether a pleading is "properly filed" within the meaning of the AEDPA is a question

of

federal law. Pace v. DiGuglielmo,544 U.S. 408, 413 (2005); Artuz v. Bennett,531 U.S. 4,
S-9 (2000). The state appeal at issue in this case directly challenged the lower state court's

ruling that purported to deprive the appellate court ofjurisdiction, and directly invoked the
appellate court's jurisdiction to determine its own jurisdiction. By deeming the petitioner's

effort to challenge the lower court's jurisdictional ruling to be improperly filed, the federal
courts below interpreted the AEDPA inconsistently with this Court's established rule that
a court always has

jurisdiction to determine its own jurisdiction.

For the purposes of the AEDPA statutory tolling mechanism, "[a]n application is

'properly filed' when its delivery and acceptance are in compliance with the applicable
laws and rules governing filings." Artuz,531 U.S. at 8 (emphasis in original) (describing
requirements such as

oothe

form of the document, the time limits upon its delivery, the court

and office in which it must be lodged, and the requisite filing fee"). The application in the

present case was timely and complied
appointment

of

counsel

to

assist

Mr. Almanza-Garcia's appeal

with filing

requirements, even resulting in

with the litigation. With

assistance

of

was successful to the extent that the

counsel,

Appellate

Commissioner granted his motion to determine jurisdiction and concluded that the lower
court had not provided any valid rationale for precluding appeal. Appendix 28.

l4

Motions to determine jurisdiction are regular motions in the Oregon appellate court

when a party perceives ambiguity or error surrounding

a

jurisdictional question. Or. R.

App.P. 7.05(1Xc) ("A party may raise an issue of the jurisdiction of the appellate court by
motion at any time during the appellate process."). An essential and explicit duty of the
Appellate Commissioner is to determine whether the appellate court has jurisdiction over

a

matter. Oregon Court

of

Appeals, Office

of the Appellate Commissioner,

hffps://www.courts.oregon.gov/courts/appellatelcoa/Pages/oac.aspx
Commissioner and staff work closely with the Records Section

Appellate Court

Administrator in screening appeals

("The

Appellate

of the Office of

the

for jurisdictional and non-

jurisdictional defects and otherwise enforcing the Oregon Rules of Appellate Procedure.").
Motions to determine jurisdiction are one of the most frequently decided matters resolved
by the Appellate Commissioner.Id.
Because

jurisdiction,

the state court had jurisdiction to decide the motion to

Mr.

Almanza-Garcia's situation

determine

is not one where "an application

[was]

effoneously accepted by a court lacking jurisdictionl.l" Artuz, 531 U.S. at 8. The Oregon
appellate court had jurisdiction to determine its jurisdiction under both established state
procedures and this Court's recognition that a court always has authority to determine its
.jurisdiction.

This Court should hold that, within the meaning of the AEDPA, a petitioner has
"properly filed" a timely application when the motion's purpose is to determine the validity

ofthe lower court's ruling thatpurported to foreclose appeal. In holding that Mr. Almanza15

Garcia's application was not "properly filed," the Ninth Circuit contravened the principle
that courts have the jurisdiction to determine their own jurisdiction. This Court should grant

certiorari to bring the federal courts into compliance with this Court's precedent.

B.

Apptication Of The AEDPA Statute Of Limitations To Jurisdictional
Litigation Violated The Plain Meaning And Purpose Of The Tolling
Provision For "Properly Filed" State Proceedings.

The present case involves a state appeal that has all the markers of being "properly

filed": the appeal was timely, the appellate court appointed counsel, and the appellate court
granted the motion to review the jurisdictional ruling. "[W]hen the meaning of the statute's

terms is plain, our job is at an end." Bostock v. Clayton Cnty., Georgia, 140 S. Ct. 1731,
1749 (2020). The present case involves the plain meaning of "properly filed" recognized

by this Court in Artuz, which requires adherence to applicable laws and rules surrounding

the delivery and acceptance of a filing. 531 U.S. at 8.

If a petition conforms

to the

procedural requirements surrounding a filing, and is subsequently accepted by the clerk

court, it is "properly filed"; alternatively,

of

"[i]f, for example, an application is erroneously

accepted by the clerk of a court lacking jurisdiction or is erroneously accepted without the

requisite filing fee, it

will

be pending, but not properly filed."

Id. at9.

Within the common meaning of "properly filed," Mr. Almanza-Garcia's timely
filing conformed to all procedural requirements for a motion to determine jurisdiction. His
motion was accepted by the state court based on the state court's jurisdiction to determine
its own jurisdiction, and his motion was subsequently decided by the appellate court. See
Pace,544 U.S. at 413 ("As in Artuz,we are guided by the 'common usage' and "commo[n]

t6

underst[anding]" ofthe phrase 'properly filed."') (quotinglrtuz,53l U.S. at 8, 9). Further,

the petition must be deemed "properly filed" as a motion in conformity with the state
procedural rules, because the appellate court granted the motion to determine jurisdiction:
ooThe

motion for determination of appealability is granted." The fact that the Appellate

Commissioner agreed with the State's response and dismissed the appeal

for lack of

jurisdiction (on different grounds than those asserted by the lower court) does not change
the fact that the appeal for determination of jurisdiction was "properly filed." Nothing
about "properly filed" means that the petitioner must prevail on the merits. The litigation

regarding the lower court's jurisdiction must have been "properly filed" because Mr.
Almanza-Garcia received a ruling on the question at hand. See Rice v. Bowen,264 F.3d

698,701 (7thCir.2001) ("If the courts considered the claim on the merits, it was properly

filed; if they dismissed it for procedural flaws such as untimeliness, then it was not properly
filed.").
The plain meaning of "properly filed" serves perfectly in the context of the AEDPA,

because

it

superseded

does not require the federal court

to defer to a lower

state court decision

by an appellate ruling. See Nken v. Holder,556 U.S. 418, 426 (2009)

("fS]tatutory interpretation turns on 'the language itself, the specific context in which that
language is used, and the broader context of the statute as a whole."') (quoting Robinson
v. Shell Oil Co.,519 U.S. 337 ,341 (1997)). Under the AEDPA, the federal court is to look

to the last state court decision and defer to the reasons articulated by that court in deciding
the federal constitutional question. Wilson v. Sellers,l3S S. Ct. 1188,
17

lI92

(2018). In the

present case, the state appellate court agreed with the petitioner: the lower state court's

decision was oolegal mumbo jumbo." But

if

the appellate court's jurisdictional ruling

resulted from a motion deemed improperly filed, then the lower court's "mumbo jumbo"

would provide the last state decision to which the federal court would have had to defer.
As a matter of comity, there is no federal interest in preventing the state court from
correcting erroneous lower court rulings before the case is subjected to federal scrutiny. As

a matter of efficiency and conserving federal resources, federal courts should not wade
through an incomprehensible state post-conviction ruling when the appellate court has
provided a clarifring ruling on appeal. The plain meaning of "properly filed" requires it to
include cases where a state appellate court properly grants a motion to determine its own

jurisdiction, even if the motion is denied on the merits.

C.

The Decision Of The District Court And The Ninth Circuit Irrationally
Btocks Diligent Petitioners From Receiving The Federal Review
Guaranteed By The Statutory And Constitutional Writ Of Habeas
Corpus.

For a petitioner like Mr. .Llmanza-Garcia, who litigated and won the point that the
state post-conviction court's ruling was

o'legal

mumbo jumbo," the decision of the district

court and the Ninth Circuit to bar the federal courthouse door irrationally and arbitrarily
blocked review through the federal writ of habeas corpus. The AEDPA does not expressly

prohibit the petitioner's effort to obtain review of the lower state court's jurisdictional
ruling. This Court has "counsel[ed] hesitancy" before blocking federal habeas corpus
review when the AEDPA does not do so explicitly:

18

The importance of the Great Writ, the only writ explicitly protected by the
Constitution, Art. I, $ 9, c1.2, along with congressional efforts to harmonize
the new statute with prior law, counsels hesitancy before interpreting
AEDPA's statutory silence as indicating a congressional intent to close
courthouse doors that a strong equitable claim would ordinarily keep open.

Holland v. Florida, 560 U.S. 631, 649 (2010); see Dretke v. Haley,541 U.S. 386,393-94
(2004) (applying the doctrine of constitutional avoidance to construe the AEDPA

as

providing a potential vehicle for relief on remand rather than resolving constitutional
questions regarding actual innocence of a sentencing enhancement).

Mr. Almanza-Garcia timely moved the state appellate court to review the lower
court's jurisdictional decision. The court appointed counsel to assist him, then granted his

motion. Although the ultimate jurisdictional ruling went against him, the appellate court
agreed that the lower court's ruling had to be superseded. No reasonable petitioner would

believe that,by seeking timely review of a jurisdictional decision, and winning its review
because the lower court opinion was so inadequate, he or she would be foreclosed from

exercising rights under the federal habeas corpus guarantee. By interpreting the AEDPA's

requirement of "properly filed" to allow the AEDPA statute of limitations to run under
these circumstances, the lower federal courts arbitrarily thwarted this Court's articulated
pu{poses and goals for federal habeas corpus review.

t9

7.

Conclusion
For the foregoing reasons, the Court should issue a writ of certiorari.
Dated this 20th day of August,2D2I.

Stephen

Sady

Attorney for Petitioner

20

Case: 20-35260, O3l03l2O21,lD: 12022522, DktEntry:37-1, Page

NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS

I

of 4

FILED
MAR 3 2021
MOLLY C. DIAfYER, CLERK

FOR TIIE NINTH CIRCUIT
FRANCIS CO ALMANZA-GARCIA.
P

etitioner-App ellant,

v

No.

U.S. COURT OF APPEALS

20-35260

D.C. No. 2: I 8-cv-01 704-HZ

MEMORANDUM-

BRIDGETT AMSBERRY,
Respondent-Appellee.

Appeal from the United States District Court
for the District of Oregon
Marco A. Hernan dez, Chief District Judge, Presiding
Submitted March !, 2021**
Portland, Oregon

Before: PAEZ and WATFORD, Circuit Judges, and TUNIIEIM,*** District Judge.
Francisco Almanza-Garcia appeals the district court's judgment dismissing
his federal habeas petition as untimely. We affrrm.

-

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.

**

The panel unanimously concludes this case is suitable for decision
without oral argument. See Fed. R. App.P. 3a@)(2).

***

The Honorable John R. Tunheim, Chief United States District Judge
for the District of Minnesota, sitting by designation.

Appendix I

Case: 20-35260, O3lO3l2O21, lD: 12022522, DktEntry: 37-1, Page 2 of 4

Page2 of 4

1. A federal

habeas

petition challenging a state court conviction must be

filed within one year of the date on which the conviction became final. 28 U.S.C.
g 2244(d)(1). The one-year statute of limitations is tolled, however, during the
pendency of a o'properly filed" application for state post-conviction relief. 1d.

5 2244(d)(2). Almama's convictions became final on December 15, 2015. Under
the prison mailbox rule, Almanzawas deemed to have filed his petition for state

post-conviction relief prior to December 15,2015, so tolling began immediately.
On February 21,2017, the state post-conviction court denied Almanza's petition

for failure to state a claim for relief. .Almanza did not frle his federal habeas
petition until June 5,2018, more than

a

year later. Almanza claims that tolling

continued after February 21,2017, while he appealed the state post-conviction

court's denial of his petition, and that tolling did not end until October 10, 2018,
when the denial of this appeal became effective.
We reject Almanza's argument. This court has held that apetitioner is not
entitled to tolling during the pendency of an appeal from a non-appealable order
because such an appeal is not a "properly filed" application for post-conviction

relief. Ramirez v. Yates,57t F.3d 993,999 (9th Cir. 2009). Here, the order
Almatuaattempted to appeal was non-appealable because under Oregon law,"a
judgment dismissing a meritless petition is not appealable," and a meritless petition

Appendix 2

Case: 20-35260, 03lO3l2O21,lD: 12022522, DktEntry: 37-1, Page 3 of 4
Page 3

of4

is dehned as one that "fails to state a claim upon which post-conviction relief may
be granted." Or. Rev. Stat. $ 138.525(2),(3).

2. Inthe alternative, Almanza

argues that he is entitled to equitable tolling.

A petitioner seeking to invoke equitable tolling must establish "(l) that he has been
pursuing his rights diligently, and (2) that some extraordinary circumstance stood
in his way." Pace v. DiGuglielmo,544 U.S. 408, 418 (2005). Almanza alleges
that his post-conviction counsel rendered ineffective assistance, constifuting an
ooextraordinary circumstance." He bases this claim on his post-conviction

attorney's filing of an affidavit stating that he had reviewed the case and did not
believe the petition could be amended to state a ground for relief. But in doing so,

Almanza's counsel was simply abiding by Oregon law, which explicitly requires a
post-conviction attorney to file such an affidavit if he believes the petition cannot
state a valid claim. Or. Rev. Stat. $ 138.590(5).

3. Finally,.Almanzarequests

that we either remand to the district court with

instructions to stay his petition pending the Supreme Court's decision in Edwards

v. Vannoy, No. 19-5807, or authorize him to pursue a claim under Ramos

v.

Louisiana, 140 S. Ct. 1390 (2020), in a second or successive petition. We are not
in

a

position to order the district court to stay the petition because it was properly

dismissed as untimely. And while the Supreme Court is considering whether

Appendix

3

Case: 20-35260,0310312021,|D: 12022522, DktEntry:37-1, Page 4 of 4
Page 4

of4

Ramos should apply retroactively in Edwards, it has not yet ruled on the matter, so

to authorize a second or successive petition now would be premature.

AFFIRMED.

Appendix 4

Case 2:18-cv-0L7O4-HZ Document

IN TI{E I]NITED

32

Filed O3lL2l2O Page 1 of

1-0

STATES DISTRICT COT]RT

FOR THE DISTRICT OF OREGON
FRANCISCO AI,MNiIZA-GARCIA,

Case No. 2:18-cv-0L704-HZ

Petitioner,

OPINION AIID

v.
BRIGITTE

ORDER

A]IISBERRY,

Respondent.

Nel1 Brown

Assistant Federal Public Defender
101 S.W. Main Street, Suite L700
Portland. Oregon 97204
AttorneY for Petit'ioner
Frederick Boss, Deputy Attorney GeneralA. Kubernick, Assistant Attorney
Department of ,fustice
1162 Court Street NE
Salem, oregon 97310
Samue1

Attorneys for

1 - OPINION

ResPondent

AND ORDER

Appendix

5

General-

Case 2:18-cv-0L704-HZ Document

32

Filed

O3lL2l2O Page 2 of 10

District,Judge.
petitioner brings this habeas corPus case pursuant to 28
u.s.c. s 2254 challenging the legality of his state convictions
for Rape and sodomy. For the reasons that follow, the Amended
Petition for Writ of Habeas Corpus (#13) is dismissed as
HERNAI{DEZ,

untimely.
BACKGROT'I[D

In 2007, the Marion county Grand ilury indicted Petitioner
on two counts of Rape in the First Degree and one count of Sodomy
in the First Degree for crimes he committed against a minor
female when she was between seven and eight years o1d. Following
the Marion County Circuit Court convicted
a bench trial,
petitioner of all three charges and senbenced him to congecutive
sentences totaling 90O months in prison. Trial Transcript,
pp.

2Ol--03

.

Petitioner took a direct appeal where he asserted that his
convictions improperly rested upon a medical diagnosis of Sexual
abuse that was unsupported by any physical evidence.l Although
Petitioner had not preserved his claim of error in the trial
courb, the Oregon Court of eppeals for:nd the medical opinion
teetimony constituted plain error and. remanded Petitioner's case

t In SEaCe v. SouEhard,347 Or. L27,218 P,3d 104 (2009), the Oregon Supreme
diagnosis of eexual abuse in the absence of
Court concluded that a medlcal sdoes
not teLt tshe jury a.nYtfinq th"f. it could
physical
evidence
corresponding
not hJve aecLrmiired on its own" such Ehats the diagnosls is inadmisslbleofunder
bhe
OEC jlo3 beeause it.s risk of prejudice outweighe bhe probatsive value
at
142'
or.
diagnosie. 347

2 - OPINION

AND ORDER

Appendix 6

Case 2:1-8-Iv-OL7O4-HZ Document

for a new trial,z
p.3d 6 j.3 (201j-) .

StaEe

32

Filed O3lL2l2O Page 3 of 10

v. Almanza-Gatcia, 242 Or. App. 350'

255

On remand, Petitioner opted for a j,,ry tria]. The j"ry
unanimously found him guilty of all three charges, and the trial
court once again imposed an aggregate 900-month prison term.

Trial Transcript, pp. 462'63' 480-82.
Petitioner directly appeated his new judgment raising claims
court's jnry
pertaining !o evident,iary rulings, the trial
instructions, and the duration of his sentence. ResPondenE's
Exhibit, L08. The Oregon Court of Appeals affirmed the trial
court,s decision without issuing a written opinion, and the
Oregon Supreme Court denied review. Sta?e v. Almanza-Garcia, 27L
Or. App. 377,353 P,3d 618, Tev. denied,358 Or. 248, 364 P'3d
L0ol- {z0j.s},

Before his direct appellate judgment, issued, petitioner
fited for post-conviction relief ("PcR") in umatilla coun|y.3 He
initiated the action with a pro se PCR PetiEion, and the PCR
court appointed counsel to represent him. Aft.er reviewing t'he
case, counsel filed an affidavit wherein he described his efforts
to ident.ify a meriEorious claim. Counsel concluded, "After
careful review of the facts of the case, it is my bel-ief thaE the
2oRAp s,45(1) provides a mechanism whereby an unpreaerved claim may stl1l

be

coneidered on appeal--trthe appellate court may consider an error of law
the Oregon Court
apparent on the face of Lhe record.rt Thle provision allowe|tobviougl
and "not
oi- nppeale to consider unpreserved errors of 1aw which are
reaeonably in diepute." Alles w. Pottland Meadows, fne., 3a2 Or. 375, 381, 823
P.2d 9s5 (1991).
3 Under the rtprison mailbox rule,rr a prisonerts documenls are deemed fl1ed at
the moment thl prieoner delivers Ehem to prison authorltLes for forwarding to
the clerk of, the court, saf,toTd v. NewTand, 224 F,3d 108?, 1091 (9uh clr.
2OO0l. pegiEioner signed hig PCR Fetition on September 9. 2015, ind hls direct
appellate JudgmenE did not iesue until December L5' 2ots-

3 - OPINION AI{D

ORDER

Appendix 7

Case 2:1-8-cv-OL7O4-HZ Document

32

Filed O3lL2l2O Page 4 of 10

orlginal petiEion cannoE be construed to state a ground for
relief under oRs l-38 .510 to 1-38 .680, and cannot be amended to
sEat,e a ground for relief .,, Respondent's ExhibiE LL4.
The st,aEe subsequent,ly moved to dismiss the case for failure
Eo sEate a claim upon which relief could be granted' Fo}Iowlng a
brief hearing, t,he PcR court granted the staEe's moEion.
RespondenE's ExhibiEs 1L5f LL6. The dismissal for faiLure to
sEate a claim was an evenE of jurisdictional

significance because
it precluded PeEltioner from appealing the PCR courE'g judgment'
,See oRS L38.525(3) ("a judgmenE dismissing a meritless petsiEion
is not appealable.")i ,see also (ORS 138.525 Ql ("'meritsless
petiEion' means one Ehat, when liberally consErued, fails Eo
sEaEe a claim upon which post-conviction relief may be
granted.").
Petitioner nevertheless proceeded to file a motion in the
Oregon CourE of Appeals in an atEempt Eo esEablish jurisdict'ion,
arguing that the PCR court. did not, unambiguously dlsmiss Ehe PCR
Petit,ion for failure to sEate a claim. Respondent's Exhiblt L18'
The Appellate Commissj-oner disagreed and deLermined t,hat, as a

matter of state law, r\the judgment [wasl not appea]-able under

oRs

(3) and, on that ground, dismisse [d] tshe appeal .''
Respondent, s ExhibiE 120. Petitioner moved for reconsideraEion of
the ASlpellate Commissioner' s decision, but the Chief .Tudge for
the Oregon Court of Appeals denied the motion. RespondenE'g
Exhibit 1,22. Thereafter, pet,itioner unsuccessfully sought review
in Lhe oregon supreme court. Respondent's Exhibit 124.
L35.525

4 -

OPTNION A}ID ORDER

Appendix 8

Case 2:18-cv-OL7A4-HZ Document

32

Filed O3lL2l2O Page 5 of L0

on september 25, 20L8, PeEitioner filed this 28 u.s.c.
S 2254 habeas corpus case. With the benefit' of appointed counsel,
Petitioner filed an Amended Petition raising claims of trial
court error, ineffective asgistance of t'rial- counsel, and acEual
innocence. Respondent asks the court to deny relief on the
petition because: (1) Petitioner failed to timely file this case;
(2) many of Petit,ioner, s claims are procedurally defaulted; and
(3) Pet,itioner's claims l-ack merit.
DISCUSSION

Statute of Llmitatlons and St.atu Lory ToLlinq
pursuanE to the Anti-terrorism and Effective Death PenaIEy
Act (*AEDpA,,), a federal habeas corpus petitioner must generalJ-y
challenge his state convictions within one year of the time those
convictions become final upon the conclusion of his direct
review. 28 U. S. C, S 2244ld) (1) (A) i see also Bowen v. Roe, 188
F,3d 1157, LLsg (9th Cir. L9991 (the period of direct review also
includes the 90-day period within which a petitioner can file a

I.

petition for writ of cerLiorari with the United States Supreme
Court, whether or not he actually files such a petition). Once a
Iitigant,s direct appeal- proceedings have concluded, the one-year
statute of limitations begins to run. If he files a proper state
PCR action, however, Ehe limitation period is Eolled during the
pendency of the PCR proceedings so long as they are properly
fiIed. See 28 U.S.c. S 2244(d) (2) ("The time during which a
properly filed appJ-ication for State post-conviction or oEher
collateral review with respect Eo the pertinent judgment or claim
5 - OPINION

AND ORDER

Appendix 9

Case 2:LB-cv-OL7O4-HZ Document

32

Filed O3lL2l2O Page 6 of 10

is pending shall not be counted Eoward any period of limitation
under this subsection. ") .
As menEioned in the Background of Ehis Opinion, Petitioner
had already initiated his PCR acEion in Umatilla County (by
signing his PCR Petition) prior Eo the effective date of his
direcE appellate judgment. eonseguently, zerQ days elapsed
beEween the conctuslon of his direct appeaL and the init'iation of
his

PCR

proceedings.

Respondent argues that alt.hough Petit,ioner properly fil-ed
his init,ial-1eve1 PCR acEion, the AEDPA's statut,e of l-imitaEions
began to run when the PCR court issued its non-appealable

on February 2L, 20]-7. As a resulE, the one-year staEuEe
of limitations ran unabated fot 469 days unEil PeEitioner signed
his original, PTo se Petition for WriE of Habeas Corpus on June
5, 2018. Petitioner counters that his motion to determine
jurisdictl-on was properly filed in the Oregon Court of Appeals,
that it was ent.irely proper for him to seek appellaEe review of
Ehe PeR court's dismissal of his case, and that. his case is
timely because statutory tolling necessarily continued untiljudgrmenE

October 10, 2018 when his

PCR

AppellaEe ,Tudgnnent became effective

after the Oregon Supreme Court denied review. Respondent's
Exhibit L25.
the Nintsh Circuit addressed a very similar guestion in
Ramirez v. Yate1, 5?1 F.3d 993 (9Eh Cir. 2009). The petitioner in
Ramirez filed a coram nobis petiEion in California sEaEe court
seeking collaEeral relief from a criminal judgment. The coram
nobis petiEion was a proper filing such that' iE toIled Ehe
5-

OPTNTON AI{D ORDER

Appendix 10

Case 2:18-Iv-OL7O4-HZ Document

32

Filed O3lL2l20 Page 7 of L0

statute of limicat.ions under 28 u.s.c. zz++(d) (21 . when
Mr. Ramirea did not obtain Ehe desired relief, he sought review
in t,he catifornia court of Appeal. However, the deniaL of coram
nobis relief was not appealable under California ]aw, thus the
Nint,h Circuit concluded that " [b] ecause the denial of the writ
was determined to be not appealable in this case, Ramirez's
appeal was not properly filed and the pendency of bhe appeal did
AEDPA's

not toII the limitations period." Id aE 999.
In this case, PeEitioner properly filed his PcR PeEition
thereby tolling the AEDPA's one-year statute of limitations
pursuant to 28 U.S.C. S 2244 (d) (2). However, just as in Ramitez,
Ehe lower court,'s decision was not appealable under state law. In
this respect, Petitioner's PCR appeaLs were not properly filed so
as to invoke statutory tolling under S 2244 (d) (2) during the
pendency of Ehose appeals, The fact that Petitioner filed a
motion verifying the absence of appellate jurisdiction in the
Oregon Court of Appeals does not affect this analysis. Where
S 2244(d) (2) tolling extends only to the time Petitioner's
init,ial-level PCR proceeding was pending, it is evidenE that he
failed to file this federal habeas cor?us challenge.
II. EauitsabIe ToIIlnq
In the alternative, Petitioner asks the Court to equit'ably
toll the statute of limitations on the basis that his appointed
PCR attorney had a conflict of interest with him and rendered
ineffective assistance of counsel. Specifically, he faults
counsel- for filing an affidavit with the PCR court stating that
7-

OPINTON AI{D ORDER

Appendix l1

Case 2:18-cv-OL7A4-HZ Document

32

Filed O3lL2l2O Page 8 of

1-0

claims lacked merit, and for making similar
representations during the PCR hearing'
nquitable toll-ing is available to tol-I the one'year statute
of limitations applicable to 28 U.S.C. S 2254 habeas corpus
cases. HoTTand v. Florida, 560 U.S. 631, 645 (20L0). A litigant
seeking to invoke equiEable tolling rnust establish: (1) that he
has been pursuing his rights diligent,ly; and (2') that some
extraordinary circumstance prevented him from timely filing his
Pace v. DlGuglieJ-mo, 544 U.S. 4O8, 4l-8 (2005). A
petition,
petitioner's

peEitioner who fails to file a timely petition due to his own
Iack of diligence is not entitled to equit'able tolling. TiTIema
v, IJong, 253 F.3d 494, 504 (9th Cir. 2O0L). Petitioner bears the
burden of showing that this rrextraordinary exclusionl shoul-d
apply to him. Miranda v. casEto, 292 F.3d L063, L065 (gth ci-r.
2002)..

oregon law requlred counsel to advise the PcR court if he
felt thaE the pCR Petition dld not, and could not, state a vaLid
claim, ORS 1"38.590(5). Counsel's adherence to this statute does

not justlfy equitable toll-ing. Moreover. even t'hough counsel
advised the PCR court that Petitioner could not state a
meritorious claim, this representation did not prevent Petitioner
from timely filing for federal habeas corpus relief; he still had
one year in which to flIe the currenE action. However, instead of
proceeding to file Ehe current action, he aEEempted to establish
appellate jurisdicEion where there waE I'Ione. soughE
reconsideration of Ehe declsion advising him Ehat there was no
jurisdlcEion, and proceeded to petition the Oregon Supreme Court
8 - OPINION

AND ORDER

Appendix 12

Case 2:18-cv-OI7O4-HZ Document

32

Filed 03lL2l2O Page 9 of 10

for review after having twice l-earned that the PcR court's
decision was not aPPealable.
while the procedural posture Petitioner faces is
unforEunate, he cannot demonstrate that he diligently pursued his
federal habeas coryus remedy and was only unable Eo timely file
this action due to extraordinary circumstances. Equitable tolling
is Eherefore not aPProPriate.
f f f . Actua1 fnnocence and Evldent*,ary Heari+g
Finally, Petitioner asks Ehe cour! Eo excuse his untimely
filing on the basis that he is acEualty innocent of the offenses
for which he was indicCeCt and convicted. A petitioner who fails
to comply with the AEDPA' s one-year statute of limibations may
overcome the default if he is able to show that he is actually
innocent of his underlying criminaL conduct, McQuiggin v,
perkins, 569 u.s. 383, 385 (2013). rn order to make a gateway
showing of actual innocence, a petitioner musE present 'rnew
reliabLe evidence-whether it be exculpabory scientific evidence,
brusbworbhy eyewitness accounts, oI critical physieal evidencethat was not presenEed at trial" which esEablishes that "it is
more likely than not that no reasonabl-e juror would have found
petitioner guilty beyond a reasonabLe doubt." Schlup v, DeIa, 5L3

u.s. 298, 324, 327 (1995).
In this case, although Petitioner cLaims that he is actually
innocent, h€ fails Eo identify any new evidence to support his
conclusory allegation of innocence. Instead, he asks the Court Eo
conduc! an evident.iary hearing at which he can develop
unspecified evidence of his innocence. Petitionerrs bare claim of
9

OPINTON AND ORDER

Appendix

13

Case 2:l-B-cv-OI7O4-HZ Document

32

Filed

AlL2l2O

Page

1-0

of 10

. an evidentiary hearlng
might reveaL of material import on his assertion of actuaL
innocence,rr Gand.atela v, ,Johnson, 286 F.3d 1080, 108? (9th Cir.
innocence rrhas fail-ed to show what

2AO2). Accordingly, Petitloner,s request for an evidenEiary
hearing is denied. Because he fails to demonstrate that no

reasonable juror woul-d have convicted hlm in light of newl-y
pregented evidence, he is unable to pass through the gaEeway of

actual innocence to excuse his untimely filing.
CONCIJU8ION

For the reasons identified above, the Amended Petition for
,
Writ of Habeas Corpus t#fS) is denied. The CourL allows a
Certificate of Appealability limit.ed to the issue of whether
petitioner is entitled to 28 U.S.C. S 2244(dl Q) Loll-ing during
the pendency of his PCR aPPeaIs.
IT IS SO ORDERED.
DATED ttris
|,y' day of March, 2020
United

].0 - OPINION AND

ORDER

Appendix 14

A

Hernandez

tates District

Judge

Case: 20-35260,0411212021,|D: 12070778, DktEntry: 39, Page 1 of

UNITED STATES COIJRT OF APPEALS
FOR THE NINTH CIRCUIT

1

FILED
APR 122021
MOLLY C. DWYER, CLERK

No. 20-35260

FRANCI S CO ALMANZA-GARCIA.
P

U.S, COURT OF APPEALS

D.C. No. 2: I 8-cv-01 704-HZ
District of Oregono
Pendleton

etitioner-App ellant,

v

ORDER

BRIDGETT AMSBERRY,
Respondent-Appellee.

Before: PAEZ and WATFORD, Circuit Judges, and TUNFIEIM,* District Judge.
The panel unanimously votes to deny the petition for panel rehearing. Judge
Paez andJudge Watford vote to deny the petition for rehearing en banc, and Chief
Judge Tunheim so recommends. The

full court

has been advised of the petition

for

rehearing en banc, and no judge requested a vote on whether to rehear the matter
en banc. Fed. R. App.P,

banc, filed March

17

35. The petition for panel rehearing and rehearing en

,2021, is DEMED.

*

The Honorable John R. Tunheim, Chief United States District Judge
for the District of Minnesota, sitting by designation.

Appendix

15

Case 2:18-cv-OL7O4-HZ Document

25-1

Filed L0/15/19 Page 230 of 360

ffiffiffffiBvffiffi
FEB s
I
2

g ?ill/

iil Justie€
Trial Divisisn,
firegon
$alem,'i6P1"

@

3

IN THE CIRCUIT COURT OF THE STATE OF OREGON

4

FOR TIIE COUNTY OF UMATILLA

5

6

CaseNo. CV160560

FRANCISCO ALMANZA-GARCIA,
Petitioner,

8

9
10

JERI TAYLOR,

S

U

PERINI'ENDENT,

EAS'fERN ORECON CORRECTIONAL

COURT'S ORDER REGARDING
SUFFICIENCY NOTTCE& MOTION TO
DISMISS - GRANTED

INSTITUTION,

Defendant.

ll
12

THIS MATTER comes to the court on January I7,2017 for review and hearing on

13

petitioner's post-conviction relief attorney's filing under ORS 138.590 and ORCP 21A(8) for

l4

faiture to state a claim.l The court heard from counsel and petitioner, and taking judicial notice

t5

of the file and records of the case, toolt the matter under advisement.

l6

For the reasons set forth herein, and the not inconsistent reasons set fbrth in the PCR

t7

counsel's affrdavit and the defendant, the motion to dismiss is granted, petition dismissed, and

r8

the defendant to prepare the judgment.

APPLICATION OF LAW OF SUFF'ICIENCY NOTICE

19

20

2l
22
23

If a post-conviction petitioner's attorney cannot identify a meritorious claim then ORS
138.590 specifically allows dismissal after hearing. ORS 138.590(5) states in part that

"[i]f

appointed counsel believes that the original petition cannot be construed to state a ground for
TE

counsel shal

I

in lieu of

to amend the

inform

and

the

COURT'S ORDERRECARDING SUFFICIENCYNOTICE & MOTION TO
DISMISS - CRANTED

EXHIBIT 116, Page 1 o1'12
Case No. 2:1 8-cv-O'17 04-HZ

Appendix 16

Case 2:18-cv-OL7O4-HZ Document

25-L

Filed

10/L5l19 Page 231 of 360
i

I

circuit court ofcounsel's beliefand the reasons therefore . ' ' ." lJpon hearing the court may

2

consider the affidavit of PCR counsel in considering the sufficienoy of the claims' Combined

3

with

to dismiss, the court considers the sufficiency under ORCP 2lA(8).

a motion

ANALYSIS OF LAW OF F'AILURE TO STATE A CLAIM

4

As a motion to dismiss under ORCP 21(8), the matter is brought requesting judgmont on

5

6

the pleadings. Under ORCP 2l(8) a defendant may move the court to dismiss for "failure to stato

1

ultimate facts sufficient to constitute

8

reason ',shall be made betbre pleading

I

any of the enumerated def'enses are based shall be stated specifically and with particularity in the

a

claim," Furthermore,

if

a

motion to dismiss making for this

a further pleading is permitted, The grounds upon which

r0

responsive pleading or motion. No defense or objection is waived by being.ioined with one or

1l

more other defenses or objections in a responsive pleading or motion." Under section (8) no

12

,.affidavits, declarations and other evidence" are required and the court relies bn the pleadings.

l3

ORCP

l4

must assume their veracity for the purposes of deciding the ORCP

I5

Lake Oswego Sch. Dist., 353 Or, 321,2g7 P.3d 1287 (Or., 2013), citing to See Juarez v.

l6

WindsqlRock Products. Inc,, 341 Or. 160, 163, 144 P,3d

t7

dismiss, couft assumes the truth of well-pleaded facts).

2I

. As

2ll

2l motion to dismiss. Doe v.

(2006) (on review of motion to

Application of Preclusion and Law of the Case Generally

l8

l9

such, though petitioner has not proved the allegation of facts to be true, the court

,.The

doctrines ofolaim preclusion2, issue preclusion3, and law oflhe case have the

20

shared purposes ofpreventing harassment by successive proceedings, preventing iriconsistent

21

adjudications, and promoting oconomy of resources in the adjudicative process. See D'Amico v.

22

Ellinwqod,209 Or,App. 713,717-18, 149 P.3d 277 Q\Aq, rev, den.,342 Or.473, 155 P'3d 5l

23

(2007) (addressing purposes ofissue preclusion and ctaim preclusion); State v. Metz, 162

& MOTION TO
2 COURT'S ORDER REGARDING SUFFICIENCY NOTICE
DISMISS - CRANTED

EXHIBIT 116, Page 2 ol 12
Case No. 2:1 8-cu-O17 04-HZ

Appendix 17

Case 2:18-cv-OL704-HZ Document

25-1

Filed 10/15/L9 Page 232 of 360

l0l

(2000) (addressing

I

or.App. 448,454, 986 P,zd 714 (lggg), rev. den.,330 or. 331,

2

foundation oflaw ofthe case doctrine). Those doctrines bind the parties to an action and those in

3

privity with them. BloomfJeld v. weaklancl, 339 or. 504, 511, 123 P.3d 275 (2005)." or. Educ.

4

Ass'n_y. Or. Taxpavers United, 253 Or.App. 288,291 P.3d202,210

5

applies

6

actually litigated and determined in the prior action." D'Amico, 209 Or.App. at 718, 149 P'3d

7

277 (internal quotation marks and citations omitted). In contrast, the law of the case doctrine

8

..precludes relitigation or reconsideration of a point of law decided at an earlier stage of the same

9

case." Bloomlie]d v. weakland,224Qr.App.433,440,

6 P.3d I

(2012)'

"lssue proclusion

,,when the parties to a prior action subsequently, in a different action, again litigate issues

199 P,3d 318 (2008), rev. den',346 Or:'

t0

115, 205P,3d 887 (2009). (Emphasis added.)" O-r..Educ. Ass'n.v. Or. Taxpayers United, 253

ll

Or.App. 288,2g1 P.3d202,210,211 (2012). The issue preclusion branch ofpreclusion by

12

former.adjudication, formerly called collateral estoppel, precludes future lit.igation on

l3

'issue only if the issue was "actually litigated and determined" in a setting where "its

a

subject

14

determination was essential to" the final decision reached.(fn4) North Clackamas-$shool Dist' v.

l5

whire,305 or48,53, 75AP2d 485, modified 305 or468,752P2d l2l0 (1988);Restatement

l6

(Second) ofJudgments $ 17(3) (1 9S2); see also id. at $ 27.

17

judgment, the decision on a particular issue or determinative fact is conclusive in a later or

r8

differept action between the same parties if the determination was essential to the judgment"'

r9

Nonh Clackamas Sohool Dist. v. White. supra, 305 Or at 53. lssue preclusion applies to an issue

20

of either fact or law. Restaternent (Second) of Judgments $ 27 ("[w]hen an issue of fact or law is

2l

actually litigated and detennined by a valid and final judgment, and the determination is essential

22

to the judgment, the determination is conclusive"). Conpare Heller v. Ebb Auto Co., 308 Or

23

774 pzd I 0g2 ( 1989) ("[w]ithout any reason to think that the referee was awaro of that legal

"Ifa claitn is litigated to final

l,

6,

NOTICE & MOTIONTO
3 COURT'S ORDER RECARDING SUFFICIENCY
DISMISS - CRANTED

EXHIBIT 116, Page 3 of '12
Case No. 2:1 8-cv-017 04-HZ

Appendix

18

Case 2:l-B-cv-OL7O4-HZ Document

25-1

Filed L0/15/19 Page 233 of 360
i
I

I

with

27. In

I

issue, no decision on that issue can be implied frorn the denial of compensation")

2

State v. Krueser, 170 Or.

J

.litigation between the same parties on an issue that was "'actually litigated and determined"' in a

4

setting where its determination was essential to the final decision reached. Drews v, EBI

5

Companies.3l0Or. 134,139,795P,2d531(1990),quotingNorthClackar4+sSchoolDistrictv'

6

White, 305 Or. 48, 53, 750 P.2d 485, modified 305 Or' 468,752 P.zd 12l0 (1988)'

App. l2 (2000), the oourt discussed issue preclusion as a bar to future

The "',law of the case" is

7

$

a

which a ruling or decision has been made in a case and the same legal problem arises a second

9

time in the same case." Vestal, 1967 lJtah L Rev. at 4." Kennedv v. WhFeler, 356 Or 518, 341

l0

P.3d728(2014). This court has described the "law of the case" doctrine as precluding

II

relitigation ofan appellate court holding after remand and on subsequenf appeal:

.,lt is

a general

I
I

concept that may arise in a number of different contexts "in

8

12

t.

principle of law and one well recognized in this state that when a ruling or

IJ

decision has been once made in a particular case by an appellate coutt, while ir may be overuuled

t4

in other cases, it is binding and conclusive both upon the inferior court in.any further steps or

l5

proceedings in the same litigation and upon the appellate court itself in any subsequent appeal or

16

other proceeding for review."" Additionally, Jury Instructions are law of the case' Kennedy v.

l7

Wheeler. 356 Or 518, 341 P.3d728,732-734 (2014). State v. Pqatt, 316 Or' 561, 569' 853 P.2d

l8

527

l9

The policies underlying that doctrine

20

decisis and resjudicata *

21

matters onoe determined, and preserving the court's prestige." Koch v. So, Pas' Transp' Co', 274

22

Or.499,511-12,547P.2d589(1976)(citingAttanD.Yestal,LawoftheCase:Single-Suit

23

Preclusion,lg67 Utah L Rev,

(lgg3) (quoting Simmons v. Was-h. F.N. Ins. Co., I40 Or. 164, 166, l3 P.2d 366 ( 1932))'

* *,

*essentially parallel those served by the dootines ofstare

i.e., consistency ofjudicial deoision, putting an end to titigation

of

1 (1967)).

NOTICE & MOTION TO
4 COURT'S ORDER REGARD]NG SUFFICIENCY
DISMISS - GRANTED

EXHIBIT 116, Page 4 oi 12
Case No. 2:1 8-cv-017O4-HZ

Appendix

19

Case 2:18-Iv-OL7O4-HZ Document

25-1

Filed L0/L5/19 Page 234 of 360

I

APPLICA-TION OF COMPARITTVE LAW OF CHURCH V. GLADDEN

2

:

This oourt reviews the sufficiency submission by PCR counsel similarly to matters in

3

4

Church v. Glad1en,when appropriate. Almost invariably, any sufficienoy notice will be

5

objected to by a petitioner in some form, writing via Churchnotice or presentation in court. In

6

particular, with counsel fi.nding no meritorious claim, the court seeks to see if ( I ) there is a claim

7

and (2) whether petitioner identifies lawful claims in the nature of that allowed undet Church'

8

Therein, if PCR counsel fails to assert a ground for relief, the petitioner rnust bring that fact

9

before the couft to avoid the ef'fect of ORS 138,550(3)4' Johnson v, Premo' 355 Or 866 (201a);

filing herein referred to

aChurch

l0

see, ftulgb_v.-G.lgdden,244 Or 308 (1966) (Petitioner's

ll

notice). Upon a sufficiency notice by PCR courrsel, and the notification to petitioner,

t2

would clearly have the opportunity to file their Churehnotice, and essentially, if they have not

t3

are

t4

as

a

petitioner

waiving that opportunity prior to dismissal, if granted.
The court looks to see if Petitioner provides legal sufficiency for additional asserted

r5

claims to be legally legitimate for inolusion, and in the altemative considers whetlrer counsel

l6

should be replaced. Johnson (2014); Bailey v. Nooth,247 Or.App.240 {2A11); ORS I38.590.

17
18

l9

The court also considers whether Petitioner is seeking to be self-represented, or wants a
new attorney if the claims are not included.s

ln this the sourt examines the court file and the amended or supplemental matters

20

subrnitted by the petitioner on the provided Church v. Gladden notice, or upon the similarly

2t

argued matters presented by petitioner in the sufficiency hearing.

,\.
23

Typically, the court

sees most

Churchnotices containing arguments on issues not brought

up at trial. A post-conviction court oan consider arguments not made at trial where counsel was

3

COURT'S ORDER REGARDING SUFFICIENC YNOT]CE & MOTION TO

DISMISS - GRANTED

EXHIBIT 116, Page 5 of 12
Case N o. 2:1 $-cu -0'17 O4-HZ

Appendix 20

l.

t'
I'

Case 2:18-cv-OL7O4-HZ Document

25-1

Filed 10/L5/L9 Page 235 of 360

'i

''

'

i

_

i

l:---:

I

incompetent or guilty of bad faith, where the right subsequently sought to be asserted was not

2

generally recognized to be in existence at the time of hial; where counsel was excusably unaware

3

of facts which would have disclosed

4

coercionpreventedassertionoftheright'@,3l8or352,354'867P2d

5

r368 (1994).

6

a basis

for the assertion of the right; and where duress or

ln the analysis this court believes that with the olaims that petitioner makes, that the court

1

must ', . . . assume the huth of well-pleaded factual allegations in plaintiffs complaint.

8

Lake oswego school Disrrict, 353 Or. 321,323,297 P.3d 1287 (2013)." cannon v. or..Depl of

9

Justice,26l Or.App. 680,322 P.3d 601 (2014).

l0

pc9-Y=

To the extent that the Churchhearing is evidentiary, the court may make findings

of

ll

credibility.

t2

facts not plead in the alternative or claims contradicted by evidencp submitted in support of the

t3

claim by petitioner does not fit within tie requirements of ORCP

l4
l5
16

t7

See, Gable v. State, 353 Or. 750, 305 P.3d 85 (2013). The pleading

of inconsislent

16 and 17.

A petitioner's Church notice and the olaim presented must still fit within the scope of
post-conviction relief.

APPLICATION OF POST-CONVICTION RELIET' LAW GENERALLY
Oregon courts apply a two-part test to determine whether a petitioner's right to effective

violated: Cenerally, for a claim in post-conviction relief the coult

has

l8

assistance of counsel was

t9

some general rules for the possibility of relief. "'First, we rnust dgtermine whether petitioner

20

demonstrated by a preponderance of the evidence that fhis lawyer] [237 Or.App. 283] failed to

21

exeroise reasonable prot'essional skill and judgment. Second, if we conclude that petitioner met

22

that burden, we further must determine whether he proved that counsel's failure had a tendency

23

ro affeot the result of his trial.'

"

E-UId.&.J-Bg!@gL 338 Or. 490,492,I l2 P.3d 320 Q0A5)

NOTICE & MOTION TO
6 COURT'S ORDER REGARDING SUFFICIENCY
DISMISS - GRANTED

EXHIBIT 116, Page 6 of 12
Case No. 2:1 8-ctt-017O4-HZ

Appendix 21

rj
!;

Case 2:18-cv-OL7O4-HZ Document

25-1

Filed L0/15/19 Page 236 of 360
L
I
I

I

;
:.

I

(quoting Lichau v, Baldwin, 333 or. 350, 359, 39 P.3d 851 (2002). That is, to be entitled to
assistanoe ofcounsel, apost-conviction

1

reliefon a claim ofdenial ofthe rightto effective

J

petitioner must demonstrate by a preponderance ofthe evidence that (1) counsel performed

4

deficiently and (2) counsel's deficient performance prejudiced the petitioner, that is, that it had a

5

tendenoy to affect the result of the trial. "Whether a petitioner has demonstrated prejudice is a

6

question of law tlrat, in turn, may depend on the post-conviction court's findings of fact." WJAtt

7

v. Czerniak,223 Or,App,307,311, 195 P.3d 912 (2008).6

i.
I
I

t,
t,
I

As noted, see237 Or.App. at278n.1,239 P.3d at1025n. l, the federal standard has been

8

9

stated similarly, To prevail on a Sixth Amendment claim of ineffeotiveness of counsel, a

l0

petitioner must demonstrate that his trial iounsel's performance "fell below an objective standard

ll

of reasonableness 'r * * under prevailing professional norms" and that "there

t2

probability that, but for counsel's unprofessional errors, the result ofthe proceeding would have

l3

been different.,' strickland v. washing(on, 466 U.S. 668, 688, 694, 104 S,Ct. 2052, 80 L.Ed.2d

l4

674

l5

perspective at the time of the alleged enor and in light of all the circumstances, and the standard

t6

of review is highly deferential." I(im-rlelman v-Moqlqqn, 477 U'5.365,381, 106 S'Ct. 2574'91

t7

L.Ed.2d 305 (1986). That is, "[a] fair assessment of attorney performance requires that every

r8

effort be made to eliminate the distorting effects of hindsight, to reoonstruct the circumstances of

l9

counsel's challenged conduct, and to evaluate the conduct from counsel's perspective at the

20

time

2l

283,239 P.3d 1023 (2010).

is a reasonable

(1984).',The reasonableness of counsel's performance is to be evaluated from counsel's

." sldgklg4li, 466 u.s. ar 689, 104 S.Ct, 2052.' Montez v. czerniak" 237

or

App 276,283-

22
23

MOT]ON TO
1 COURT'S ORDER REGARDING SUFFICIENCY NOTICE &
DISMISS - CRANTED

EXHIBIT 116, Page 7 of 12
Case No. 2:1 8-cu-017O4-HZ

Appendix22

l.;

I:

aa

a:

Case 2:L8-cv-OL7O4-HZ Document

25-1

Filed L0/15/19 Page 237 of 360

I

APPLICATION OF THE ISSUE OF SUFFICIENCY IN RELATIONSHIP TO FAILURE

,

TO STATE A CLArM UNDER ORCP 2lA(S)

3

The inclusion of a claim into the formal complaint to be heard merely allows a claim to

4

go fonh and does not certify it for inclusion at trial. It is still subject to the processes under the

5

judgment'
Oregon Rules of Civil Proceduren such as motions to dismiss or motion for summary

6

Thus, the court considers whetherthe petitioner has brought a cognizant claim for relief,

lbr relief without

7

a plain and concise statement of the ultimate facts constituting a olaim

8

view
unnecessary repetition, under ORCP l6 and I8, which while "liberally construed with a

9

substantial justice" under ORCP 12, which is based on the petitioners "reasonable knowledge,

of

r0

information and belief', are suppofied by the evidence or ifthey are not then so state or that

ll

further discovery will support the claims and how, representing are claims that "are warranted

t2

by existing law or by a nonfrivolous argument for the extension, modification or reversal of

l3

existing law or the establishment of new law and are

l4

purpose, suoh as to harass or to cause unnecessary delay or needless increase in the cost

l5

litigation" under ORCP 17. A claim not able to be so certified causes the petitioner or a

16

petitioner's attomey to be subject to sanctions'

).7

If a claim

o'

not "being presented for any improper

of

meets the substantial requirements under ORCP then the court must consider

18

why the claim is brought now under Palmer and then whether the claim asserts a claim of Trial

l9

Defense Counsels' ineffbctiveness and whether there is a tendency towards prejudice then to the

20

petitioner as generally outlined in Montez. Overall then the court must consider multiple legal

2l

issues to determine

",1

claim must be capable of review under ORCP, and for that then when liberally construed, does

23

the claim sufficiently provide a cognizant, plain and concise statoment certifiable under ORCP'

g

if the claim asserted should be included in the formal petition. First, the

lcouRTs
I

ORDER RECARDING SUFFICIENCY NOTICE & MOTION TO

DrsMrss - GRANTED

EXHIBIT 116, Page 8 ot 12
Case No. 2:1 8-cu-O17O4-HZ

Appendix 23

Case 2:18-Iv-OL7O4-HZ Document

25-1

Filed L0/L5/19 Page 238 of 360
i:':i-i*i:l::l:.:..tr.i:\
-::

I

2

Secondly, if the issues were not raised at trial then is the clairn brought for a reason allowed
under Palmer? Third,

within the four corners of the claim, does the claim sufficiently allege

ineffective assistance of counsel under the Oregon and or US Constitutiorr given a presumption
asserted subject however to findings ofinconsistent facts provided

4

oftruth ofthe well plead facts

5

by petitioner self-refuting the claim, and findings of credibilify by the court where evidence is

6

provided in support of the claim and there is basis for the findings? Fourth, within a claim

7

meeting those prerequisites, does the claim present a reasonable claim ofa tendency for

8

pre.judice to the petitioner for the results at trial, or with a

9

voluntary and intelligent basis for the plea? [f such are shown then a claim should go forward to

;:

the realm ofdue process in the petition.

!

l0

II
l2

ln cases of sufficiency notices, PCR oounsel has identified no legal way to submit a
meritorious claim with the amendment of the petition.

APPLICATION TO PETITONER'S CLAIMS

l3
t4

l5
t6

guilty plea affect the knowing,

A restatement of the causes for insufficiency stated in the affidavit and motion to dismiss
are unnecessarily redundant and incorporated by the oouft as the basis for decision herein.

Petitioner's claims and any supplemental matters or reasons to make the claims viable
plain and conoise statement

t1

fail to present a claim for relief. The petitioner's olaim(s) is/are not

l8

presenting a cognizant and understandable claim(s), are not supported by assertions and matters

r9

petitioner has provided, is not legitimately certifiable under ORCP 17, and there is no basis

20

undet Palmer to present the claim. Petitioner's claim does not present a cognizable claim for

2t

post-conviction relief, does not present a claim under the Oregon or US Constitution, and does

22

not provide any basis for a tendency for prejudice-

23

I

COURT'S ORDERREGARDTNG
DISMISS - GRANTED

S UFFICIENCY

a

NOTICE & MOTION TO

EXHIBIT 116, Page 9 ot 12
Case No. 2:1 &-cu -01 7 O4-HZ

Appendix 24

Case 2:18-cv-OL7O4-HZ Document

25-1

Filed 10/1-5/l-9 Page 239 of 360

t..
!
!
!

I

Thus, petitioner has not shown that the claims are legally legitinrate for inclusion, nor are

)

they able to be arnended to be macle legal claimsT. The court declines to remove/replace counsel,

3

who is demonstrating the skills and experienqe commensurate with the nature of the case, and

I

has proceeded

5

Nooth, 247 Or,App. 240 (2011)(requisite slcills); ORS 138.590(authorizing sufficiency affidavit).

6

Moreover, such claims if pursued could then be considered upon analysis as to whether they are

7

withr:ut merit and subject to being dismissed under ORS 138.525 or frivolous under ORS

8

138.527, which the court finds they otherwise would be, and would be subject to motions to

9

dismiss under ORCP 21 or motions for summary judgment.

ethically in submitting the sufficiency notice/affidavit. Johnson (2014); Bailey v.

I)ismissal is granted as requested and the state to preparo thc judgment with any

l0

il

necessary findings and conclusions. Deferrdant, ex rel State

l2

SO ORDERED

"r$;:fff;,lt

lle*Prevailin8

ParW.

l3
ttanl€l J. Hill, Clrcult Court Judgt

l4
l5
t6

Typically, these matters arise either by way of the PCR attomey's notice of insufficiency, with a motion to
'
dismiss, oi a notiie of insufficiency by the PCR attorney and a motion to dismiss by the defendant. The review and
outcome is the same either way.

t7

2

l8
19
2A
21

22
23

,,The doctrine ofclaim preclusion, also refened to as res judicata, prevents a plaintifffronr raising a claim
that was or could have been raised in a prior suit. New York law has adopted a "transactional approach" to claim
preclusion. See, e.g., Gargiul v. 'lompkins, 790 F.2d265,269 (2dCir.1986) (citing Reilly v. Reid, 45 N.Y.2d 24,
ioZ N.V.S.ZO 645;379 N.E.2d 172 (1978)). "[O]nce a claim is brought to a final conclusion, alI other claims arising
out ofthe same transaction or series oftransaction are barred. . . ." O'Brien v. City of Syracuse, 54 N Y'2d 353' 357'
44s N,Y.S.2d 687, 688, 429 N.E.2d I 1 58 (1981).
Under Rule 8 ofthe Federal Rules ofCivil Procodure, which governs general pleading rules in federal oourt,
"[plreclusion . . . is not a jurisdictional matter." Exxon Mobil, 544 U.S. a1293, 125 S.Ct. l5 I 7 (oiting Fed'R'Civ'P.
Sioj, which lists clainr preclusion as an a{Iirmative defense). As such, the defense of claim and issue preolusion may
be waived by the partics, see Nat'l Mkt. Share, Ino. v. sterling Nat'l Bank, 392F.3d 520,526 (2d Cir.2004)
("Generally-scherer
a failure to ptead an affinnative defense results in a waiver." (intomal citations and quolation marks
v. Equitable Life Assurance Soc'y, 347 F.3d 394, 398 (2d Cir. 2003) ("The preclusion doctrines ...
omitred));
. are waiveable affirmative defenses."); Curry v. City of Syracuse, 3 t6 F.3d 324,330-31 (2d Cir.2003) ("[C]ollateral
estoppel, lifte res judicata, is an affrrmative defense, . . . [I]t normally must be pled in a timely manner or it may be

t{} COURT'S

ORDER REGARDING SUFFICIENCY NOTICE & MOTION TO

DISMISS. GRANTED

EXHIBIT 116, Page 1O ot 12
Case No. 2:1 8-cu-017O4-HZ

Appendix 25

Case 2:l-8-cv-OL7O4-HZ Document

I

2
3

4
5

6
7

25-L

Filed L0/L5/1.9 Page 24O of 360

waived."), and we are under no obligation to raise the issue nostra sponte, Scherer, 347 F.3d at 398 n.4 (noting that
although a court is "free to raise that defense sua sponte, even ifthe parties have seemingly waived it," there is "no
obligaiion on the part ofa court io act sua sponte and interpose the defense if it has not been raised"), lndeed, our
.oui h*t recognized that sua sponte application ofclaim preclusion is "not always desirable." ld." McKithen v
Brown, 481 F.3d 89, 104 (2nd Cir.' 2007).
,,To show issue preclusion, appellees must prove fout elements: I ) The issue sought to be precluded must
in the prior'litigation; 2) the determination ofthe issue must have been actually
litigated; 3) the determination ofthe issue must have been essential to.the final judgment; and 4) the party against
wh-om issue preclusion is invoked must have been fully represented in the prior action. Meyer v. Rigdon, 36 F.3d
be the same as that involved

1375,1379

(7thCir.l994)." Qentryv.Duckworth,65F.3d555,561 (C.A7(lnd,), I995).

'

"Issue preclusion bars litigation ofan issue already "litigated and determined" in a context where "its
detennination was essential to" the final decision. Drews v. EBt Companies, 3 1 0 Or. I 34, 131 , 795 P.2d 53 I
(l 990). Issue preclusion applies only where the following five requiretnents are met;

8

"1. The issue in the two proceedings is identical

9

"2. The issue was actually litigated and was essential to a final decision on the merits in the prior proceedings'

10

1l
12

r3

t4

l5
r6
17

r8
19

20
21

22
23

"3. The party sought to be precluded has had a full and fair opportunity to be hbard on that issue.
"4. The party sought to be precluded was

a

party or was in priviry with a party to the prior proceeding.

preclusive effect." Nelson v'
"5. The prior proceeding was the type ofproceeding to which this court will give
Emerald People's Utilitt Dist., 3l 8 Or. 99, 104, 862 P .2d 1293 ( 1993) (citations omitted); see also State Fann Fire

andCas.Co.v.Reuter,299Or.155,158-59,700p.2d236(1985)."Stevensv.Horton,984P.2d868,l6lOrApp

4s4

(l

999).

1

. . . [A]ny grounds not so assertbd are deemed waived unless the court on hearing a subsequent petition
finds grounds for reliefasserted therein which could not reasonably been raised in the original or amended petition."
ORS i38.550(3). Petitioner asserts his issues that he/she wishes to pursue that counsel does not see as legally viable
for the courl to examine given the evidence presented by the petitioner, and if not shown as viable may not then be
pursued by counsel under a Church v. Gladden order. 'fhe court sees preclusive effect to the deDial ofthe inclusion
ofthe asserted claims under ORS 138.550(4).

s
Self-representation would not insure petitioner that his asserted claims, those determined to not have lsgal
validiry here, wouid be tried sinoe they do not carry lawfuI merit for inclusion as a claim. Such claims if pursued
could then be oonsidered upon analysis as to whether they are without merit and subjeot to being dismissed under
oRS 138.525 orfrivolous under ORS 138,527.
6

In context of a guilty plea ""[u]nder Oregon law, a petilioner claiming inadequate assistance of counsel
must prove that his or her h'ial counsel failed to exercise reasonable professional skill and judgment and that,
because ofthat failure, the petitioner suf:fered prejudice." Pereida-Alba, 356 Or at 661-62. He also acknowledges
that, lo establish prejudice, a post-conviction petitioner generally must show that the inadequacy ofhis hial counsel
"had a tendency to affect the result ofthe petitioner's prosecution." Real v. Nooth, 268 Or App 747,752,344 P3d
33, rev den, 357 Or 550 (20 I 5). Thus, for example, petitioners who slaim that their lrial lawyers did not adequately
advise them ofthe consequences ofpleading guilty must ''prove by a preponderance ofthe evidence that they would
not have pleaded guilty had they received adequate assistance ofcounsel," Cox v. Howon, 268 Or App 840, 842,
3$ P3,d677 QAl5). Essentially, the petitioner musl establish that tlre inadequate performance of counsel tended to
affect the outcome ofthe criminal proceeding." Lambert v. Premo,274 Or App 3 80, 385 (20 15). See also, Green v.

Franke,357Or301 (2015),fn13. "[A]post-convictionpetitionercouldclaimthatshehadreceivedineffectivelegal
assistance oftrial counsel in deciding wbether to accept a guilty plea. To pravail on that slaim, the petitionel would

ll

COURT'S ORDER REGARDING SUFFIC]ENCY NOTICE & MOTION TO
D]SMISS - GRANTEI)

EXHIBIT 116, Page 11 of 12
Case No. 2:1 8-cu-017O4-HZ

Appendix 26

1

I

i
I

Case 2:18-cv-OL7O4-HZ Document

25-1

Filed 10/15/19 Page 24L of 360

'::l?:j::i11:::l
I

i
I

ii

I

4

have to prove (l ) that counsel had failed to provide her with legal assistanee that was constitulionally sdequate to
enable her to make an informed decision about whether to ptead guilty ard (2) that she was prejudiced by counsel's
deficient representation. In such a case, prejudice can be shown by proving that the.petitioner would not have
pleaded guilty and, instead, would have proceeded to trial. See Moen v. Peterson, 3 l 2 Or. 503, 513,824 P 2d 404
trSSt).-batiu. Hill, 188 P.3d 384,220 Or. App.657,662 (2003). Moreover, even if for the guilty plea trial
defense counsel had provided petitioner the additional information alleged as not investigated, the petitioner must
still provide suppon that such would have changed the outcome, the decision to enter into the guilty plea. See, Datt

5

?

a

J

v. Hill, I 88 P.3d 384, 220 Or. App.657 (2008)'
oRS 138.550(4),

:

6

:

7
':

8

9
1

::

10

":
:::

ll
12

L,-

til

t:

l3

L

li

14

t

l!

15

F:

ll

l6

I

l7

t

L

t.

I

ll

t

t8

L

r9
FJ

L

20

!

t::

,,

ii

2l

F'

t:

22
23

1? COURT'S ORDER RECARDING SUFFICIENCY NOTICE & MOTION TO
DISMISS - GRANTED

f.

f:

EXHIBIT 1't 6, Page 12 of 12
Case No. 2:1 8-cu-O1704-HZ

Appendix 27

I

Case 2:l-8-cv-OL7O4-HZ Document

25-l-

Filed L0/l-5/L9 Page 288 of 360

IN THE COURT OF APPEALS OF THE STATE OF OREGON
FRANC ISCO ALMANZA-GARCIA,
Petitioner-Appel lant,
V

JERI TAYLOR, Superintendent, Eastern Oregon Correctional lnstitution,
Defendant-Respondent.
Umatilla County Circuit Court No. CV160560
Court of Appeals No. A164880
ORDER DISMISSING APPEAL
Petitioner appeals the trial court's judgment dismissing his petition for postconviction relief, and moves for a determination of whether the judgment is not
appealable under ORS 138.525(3) because dismissal was based on the trial court's
determination that petitioner's petition failed to state a claim on which post-conviction
relief may be granted. The motion for determination of appealability is granted.
Petitioner characterizes the trial court's order as "a hodgepodge of legal mumbo
principles that have nothing to do with the
jumbo
-presentwith citations to cases and legal
case." The court concurs with that characterization. The order appears to be a
form order that the trial court has employed in other post-conviction relief cases,
including but not limited to Breece v. Amsberry,279 Or App 648, 650-51 , 381 P3d 1086
(2016), Corona v. Amsberry, 284 Or App 414, 417 , 393 Pgd 248 (2017), Knight v.
Myrick, Court of Appeals No. A162804, and Etheridge v. Popoff, Court of Appeals No.
A164345.
Nevertheless, as respondent asserts, the trial court's judgment ultimately is
based on the trial court's determination that the petition did not allege a claim for postconviction relief, as reflected in the trial court's order granting respondent's motion to
dismiss, which, in turn, was based on a failure to allege a claim for post-conviction relief.
The court concludes that the judgment is not appealable under ORS 138.525(3) and, on
that ground, dismisses the appeal.

OF COSTS
DESIGNATION OF PREVAILING PARTY AND
Costs: Allowed, payable by petitioner
Prevailing party: Respondent

g.

Jason L Weber
Ryan P Kahn

ej

ORDER DIS MISSING APPEAL

REPLIES SHOULD BE DIRECTED TO: State Court Administrator, Records Section,
Supreme Court Building, 1163 State Street, Salem, OR 97301-2563
Page 1 of 1

EXHIBIT 120,Page'l ot1
Case No. 2:1 8-cv-017 O4-HZ

Appendix 28

Additional State Opinions On A Court's Ability To Determine lts Own Jurisdiction

Jffirson Cnty. Comm'n

v. Edwards, 32 So. 3d 572,583 (Ala. 2009) ("[T]he
authority is clear to the effect that every court of general jurisdiction has
judicial power to determine the question of its own jurisdiction.") (internal
quotations omitted).
2.

Connery v. Gieske, 323 Conn. 377, 388, 147 A.3d 94, 100 (2016)

("[I]t

is

axiomatic that courts, including courts of limited jurisdiction, have
jurisdiction to determine [their] own jurisdiction once [it] has been put in
issue.") (internal quotations omitted).

^J

Rodriguez v. State,239 So. 3d 147,150 (Fla. Dist. Ct. App. 2018) ("We have
jurisdiction to both question our own jurisdiction and to determine that

question.")

4.

5

State by Off, of Consumer Prot. v. Joshua, l4l Haw. 91, 95, 405 P.3d 527,
531 (2017) ("A court always has jurisdiction to determine whether it has
jurisdiction over a particular case.") (internal citations omitted).

151 Idaho 289,294,255 P.3d 1175, Il80 (2011)
("Courts have the power to inquire into their own jurisdiction. Courts are
obligated to ensure their own subject matter jurisdiction and must raise the

In re City of Shelley,
issue sua sponte

if necessary.").

6.

City of Des Moines v. Des Moines Police Bargaining Unit Ass'n,360 N.W.2d
7 29, 7 30 (Iowa 1 985) ("Every court has inherent power to determine whether
it has jurisdiction of the controversy before it.").

7

GFTLenexa, LLC v. City of Lenexa,3I0 Kan. 976,980, 453 P.3d 304, 308

8

(2019) ("Appellate courts exercise unlimited review over jurisdictional
issues and have a duty to question jurisdiction on their own initiative.").

In re Adoption of Anisha, 89 Mass.App. Ct.822,828 n.6, 55 N.E.3d 986,
992 n.6 (2016) ("We also note that courts in the Commonwealth have both
the power and the obligation to resolve questions of subject matter

jurisdiction whenever they become apparent.") (internal quotations omitted).
9

Miss. Div. of Sons of Confederate Veterans v. Univ. of Miss.,269 So. 3d
1235, 1239 (Miss. Ct. App. 2018) ("[E]very court has jurisdiction to
determine its own j urisdiction.").

Appendix 29

10.

Al-Hanarey v. Al-Hawarey, 460 S.W.3d 40, 41 (Mo. Ct. App. 2015) ("In
every appeal, this Court must determine whether we have jurisdiction.").

11.

Foley v. Foley,156 N.C. App. 409, 412,576 S.E.2d 383, 385 (2003) ('[A]
court has inherent power to inquire into, and determine, whether it has
jurisdiction and to dismiss an action [sua sponte] when subject matter
jurisdiction is lacking.").

t2.

Allstate Ins. Co. v. Cleveland Elec. Illuminating Co.,2008-Ohio-3917, tf I l,
119 Ohio St. 3d 301,304,893 N.E.2d 824,827 ("Trial courts determine their
own jurisdiction.").

13.

State v. Stffinsen,2O2O S.D. 36,945 N.W.2d 919,920

has jurisdiction
omitted).

14.

15.

n.3 ("A court always
jurisdiction")
(internal quotations
to determine its own

New v. Dumitrache, 604 S.W.3d I,20 (Tenn. 2020) ("We begin with an
obvious proposition- a court has jurisdiction to determine its own
jurisdiction, for a basic issue in any case before a tribunal is its power to act,
and it must have authority to decide that question in the first instance.")
(internal quotations omitted).
The HoustonAeronautical Heritage Soc'y Inc. v. Graves,No.

0l-12-00443-

CY ,2013 WL 6506301 *3 (Tex. App. 2013) ("This court has the jurisdiction

to determine its own jurisdiction").
16.

17.

Amundsen v. univ. of utah, 2019 uT 49, n 26,448 P.3d 1224,
district court has jurisdiction to determine its own jurisdiction.").

I23l ("A

Matter of Est. of Reugh, l0 Wash. App.2d20, 43, 447 P.3d 544, 558, review
denied, 194 Wash. 2d 1018, 455 P.3d 128 (2020) ('Nevertheless, a court
always has jurisdiction to determine whether it has jurisdiction over a
particular case.").

Appendix 30

28 U.S.C. 92244

52244. Finality of determination
(a) No circuit or district judge shall be required to entertain an application for a writ of habeas
corpus to inquire into the detention of a person pursuant to a judgment of a court of the United
States if it appears that the legality of such detention has been determined by a judge or court of
the United States on a prior application for a writ of habeas corpus, except as provided in section
2255.

(bxl) A claim presented in a second or successive habeas

corpus application under section
2254 that was presented in a prior application shall be dismissed.

(2) A claim presented in a second or successive habeas corpus application under section2254
that was not presented in a prior application shall be dismissed unless(A) the applicant shows that the claim relies on a new rule of constitutional law, made
retroactive to cases on collateral review by the Supreme Court, that was previously unavailable;

or

(B)(i) the factual predicate for the claim could not have been discovered previously through
the exercise ofdue diligence; and
(ii) the facts underlying the claim, if proven and viewed in light of the evidence as a whole,
would be sufficient to establish by clear and convincing evidence that, but for constitutional
elror, no reasonable factfinder would have found the applicant guilty of the underlying offense.
(3XA) Before a second or successive application permitted by this section is filed in the district
court, the applicant shall move in the appropriate court of appeals for an order authorizing the
district court to consider the application.
(B) A motion in the court of appeals for an order authorizing the district court to consider a

second or successive application shall be determined by a three-judge panel ofthe court ofappeals.
(C) The court of appeals may authorize the filing of a second or successive application only
it determines that the application makes a prima facie showing that the application satisfies the
requirements of this subsection.
(D) The court of appeals shall grant or deny the authorization to file a second or successive
application not later than 30 days after the filing of the motion.
(E) The grant or denial ofan authorization by a court ofappeals to file a second or successive
application shall not be appealable and shall not be the subject ofa petition for rehearing or for a

if

writ of certiorari.

(4) A district court shall dismiss any claim presented in a second or successive application that
the court of appeals has authorized to be filed unless the applicant shows that the claim satisfies
the requirements of this section.
(c) In a habeas corpus proceeding brought in behalf of a person in custody pursuant to the
judgment of a State court, a priorjudgment of the Supreme Court of the United States on an appeal
or review by a writ of certiorari at the instance of the prisoner of the decision of such State court,
shall be conclusive as to all issues offact or law with respect to an asserted denial ofa Federal
right which constitutes ground for discharge in a habeas corpus proceeding, actually adjudicated
by the Supreme Court therein, unless the applicant for the writ of habeas corpus shall plead and

Appendix 31

the court shall find the existence of a material and controlling fact which did not appear in the
record of the proceeding in the Supreme Court and the court shall further find that the applicant
for the writ of habeas corpus could not have caused such fact to appear in such record by the
exercise of reasonable diligence.
(dxl) A l-year period of limitation shall apply to an application for a writ of habeas corpus by
a person in custody pursuant to the judgment of a State court. The limitation period shall run from
the latest of(A) the date on which the judgment became final by the conclusion of direct review or the
expiration of the time for seeking such review;
(B) the date on which the impediment to filing an application created by State action in
violation of the Constitution or laws of the United States is removed, if the applicant was
prevented from filing by such State action;
(C) the date on which the constitutional right asserted was initially recognized by the
Supreme Courto if the right has been newly recognized by the Supreme Court and made
retroactively applicable to cases on collateral review; or
(D) the date on which the factual predicate of the claim or claims presented could have been
discovered through the exercise ofdue diligence.

(2) The time during which a properly filed application for State post-conviction or other
collateral review with respect to the pertinent judgment or claim is pending shall not be counted

toward any period of limitation under this subsection.

Appendix 32

28 U.S.C. 522s4
S 2254. State

custody; remedies in Federal courts

a) The Supreme Court, a Justice thereof, a circuit judge, or a district court shall entertain an
application for a writ of habeas corpus in behalf of a person in custody pursuant to the judgment
of a State court only on the ground that he is in custody in violation of the Constitution or laws or
treaties of the United States.
(b)(1) An application for a writ of habeas corpus on behalf of a person in custody pursuant to
the judgment of a State court shall not be granted unless it appears that(A) the applicant has exhausted the remedies available in the courts of the State; or
(B)(i) there is an absence ofavailable State corrective process; or
(ii) circumstances exist that render such process ineffective to protect the rights of the
applicant.

(2) An application for a writ of habeas corpus may be denied on the merits, notwithstanding the
failure of the applicant to exhaust the remedies available in the courts of the State.
(3) A State shall not be deemed to have waived the exhaustion requirement or be estopped from
reliance upon the requirement unless the State, through counselo expressly waives the requirement.
(c) An applicant shall not be deemed to have exhausted the remedies available in the courts of
the State, within the meaning of this section, if he has the right under the law of the State to raise,
by any available procedure, the question presented.
(d) An application for a writ ofhabeas corpus on behalfofa person in custody pursuant to the
judgment of a State court shall not be granted with respect to any claim that was adjudicated on
the merits in State court proceedings unless the adjudication of the claim(l) resulted in a decision that was contrary to, or involved an unreasonable application of,
clearly established Federal law, as determined by the Supreme Court of the United States; or
(2) resulted in a decision that was based on an uffeasonable determination of the facts in
light ofthe evidence presented in the State court proceeding.

(e)(l) In a proceeding instituted by an application for a writ of habeas corpus by a person in
custody pursuant to the judgment of a State court, a determination of a factual issue made by a
State court shall be presumed to be coruect. The applicant shall have the burden of rebutting the
presumption of correctness by clear and convincing evidence.
(2) Ifthe applicant has failed to develop the factual basis ofa claim in State court proceedings,
the court shall not hold an evidentiary hearing on the claim unless the applicant shows that(A) the claim relies on(i) a new rule of constitutional law, made retroactive to cases on collateral review by the
Supreme Court, that was previously unavailable; or
(ii) a factual predicate that could not have been previously discovered through the
exercise ofdue diligence; and

(B) the facts underlying the claim would be sufficient to establish by clear and convincing

evidence that but for constitutional error, no reasonable factfinder would have found the applicant
guilty of the underlying offense.

Appendix 33

(0 If the applicant challenges the sufficiency of the evidence adduced in such State court
proceeding to support the State court's determination of a factual issue made therein, the applicant,
if able, shall produce that part of the record pertinent to a determination of the sufficiency of the
evidence to support such determination. If the applicant, because of indigency or other reason is
unable to produce such part ofthe record, then the State shall produce such part ofthe record and
the Federal court shall direct the State to do so by order directed to an appropriate State offrcial. If
the State cannot provide such pertinent part of the record, then the court shall determine under the
existing facts and circumstances what weight shall be given to the State court's factual
determination.
(g) A copy of the official records of the State court, duly certified by the clerk of such court to
be a true and correct copy of a finding, judicial opinion, or other reliable written indicia showing
such a factual determination by the State court shall be admissible in the Federal court proceeding.
(h) Except as provided in section 408 of the Controlled Substances Act, in all proceedings
brought under this section, and any subsequent proceedings on review, the court may appoint
counsel for an applicant who is or becomes financially unable to afford counsel, except as provided
by a rule promulgated by the Supreme Court pursuant to statutory authority. Appointment of
counsel underthis section shall be governed by section 30064 oftitle 18.
(i) The ineffectiveness or incompetence of counsel during Federal or State collateral postconviction proceedings shall not be a ground for relief in a proceeding arising under section2254.

Appendix 34

